Audit Report




OIG-09-046
GENERAL MANAGEMENT: The Mint Subleased Excessive Space
in Its Headquarters Building (Corrective Action Verification on
OIG-02-074)
September 3, 2009




Office of
Inspector General
Department of the Treasury
Contents


Audit Report

  Background ........................................................................ …………………… 1

  Objective, Scope, and Methodology ....................................... …………………… 3

  Corrective Actions Taken by the Mint ............................................................ 4

  Analysis of Space Needs .............................................................................. 6

  Conclusion ................................................................................................. 8

Appendices

  Appendix 1:          Management Response ......................................................... 9
  Appendix 2:          Report Distribution ................................................................ 10

Abbreviations

  JAMES           Joint Audit Management Enterprise System
  OIG             Office of Inspector General
  PBIC            Planning, Budget and Internal Control Division
  PCA             planned corrective action
  PROC            procurement
  TD              Treasury Directive




                       The Mint Subleased Excessive Space in Its Headquarters Building                    Page i
                       (OIG-09-046)
This page intentionally left blank.
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                        September 3, 2009

                        Edmund C. Moy
                        Director
                        United States Mint

                        This report presents the results of our review of corrective actions
                        taken by the United States Mint in response to our March 2002
                        report on the Mint’s excessive leased space for its headquarters in
                        Washington, DC.1 The Mint leased two buildings, one at 801 9th
                        Street, N.W., in 1997, and another at 799 9th Street, N.W., in
                        1999, with the total leased space of 381,600 square feet. In our
                        March 2002 report we recommended that the Mint identify excess
                        space and sublease that space or put it to other appropriate and
                        authorized use, and ensure that sound business practices are
                        followed for future space acquisitions.

                        In brief, we found that the Mint has taken steps to eliminate the
                        excess space in these buildings. It consolidated its headquarters
                        operation, sublet more space to federal agencies, and during our
                        review awarded a sublease for the remaining excess space in the
                        801 9th Street building.


Background
                        According to Office of Management and Budget Circular A-50,
                        audit follow-up is an integral part of good management and a
                        shared responsibility of management and auditors.2 Each agency
                        should establish an audit follow-up system to assure the prompt
                        and proper resolution and implementation of audit
                        recommendations. Treasury requires bureau staff to ensure that
1
    The Mint Leased Excessive Space for Its Headquarters Operation, OIG-02-074 (Mar. 29, 2002).
2
    Office of Management and Budget Circular A-50, revised, “Audit Follow-up” (Sep. 29, 1982).

                        The Mint Subleased Excessive Space in Its Headquarters Building           Page 1
                        (OIG-09-046)
                        (1) audit recommendations are resolved on a timely basis;
                        (2) resolved audit recommendations (i.e., those agreed to by
                        bureau management) are promptly acted upon and that progress
                        with respect to proposed and ongoing corrective actions is
                        adequately monitored; and (3) statistical information and other data
                        are appropriately reported pursuant to all statutory and regulatory
                        requirements.3

                        The status of audit recommendations is tracked in Treasury’s Joint
                        Audit Management Enterprise System (JAMES), an interactive
                        system accessible to both the Treasury Office of Inspector General
                        (OIG) and bureau management. JAMES contains tracking
                        information on audit reports from their issuance through completion
                        of all actions related to the findings and recommendations.

                        At the bureau level, the Mint uses its own internal tracking
                        process, which contains more detailed information than JAMES.
                        The Mint’s Planning, Budget and Internal Control Division (PBIC)
                        coordinates the development of Mint responses to audit findings
                        and recommendations. The PBIC Division Chief validates the
                        planned corrective actions (PCA) developed by responsible program
                        officials, and PBIC staff record, monitor, and track implementation
                        of the PCAs by using the Mint’s internal tracking process. For audit
                        recommendations related to information technology, PBIC receives
                        technical support from the Mint’s Information Security Division.

                        PBIC staff also enter PCAs in JAMES, monitor the status of audit
                        recommendations, update the status, and, with the approval of the
                        PBIC Division Chief, close recommendations.




3
    TD 40-03, “Treasury Audit Resolution, Follow-Up, and Closure” (Feb. 2, 2005).

                        The Mint Subleased Excessive Space in Its Headquarters Building   Page 2
                        (OIG-09-046)
Objective, Scope, and Methodology
              The objective of this corrective action verification was to determine
              whether the Mint’s management had taken corrective actions
              responsive to our recommendations to sublease excess space at its
              two leased headquarters buildings or put it to other appropriate and
              authorized use and to ensure that sound business practices are
              followed for future space acquisitions. This corrective action
              verification addresses the PCAs associated with the two
              recommendations in our March 2002 report.




           801 9th Street                                        799 9th Street

              We met with the audit liaison Program Manager and staff from
              PBIC to obtain an understanding of the process used to monitor the
              status of recommendations recorded in JAMES. We queried
              JAMES to review the status of the recommendations. We reviewed
              the Mint’s updated procurement policy, space plans, sublease
              documents, data on the number of employees and contractors, and
              other documents related to the Mint’s lease. We conducted a
              space-needs analysis for the Mint’s headquarters operation
              based on the same criteria and methodology used in our
              previous audit with the updated information provided by the
              Mint.

              We conducted our fieldwork at Mint headquarters in Washington,
              D.C., from July 2008 to September 2008. However, due to a
              congressional mandate to complete a material loss review of a
              failed bank, this audit was suspended in October 2008. We




              The Mint Subleased Excessive Space in Its Headquarters Building     Page 3
              (OIG-09-046)
                     resumed the audit in April 2009 and completed the fieldwork in
                     May 2009.

                     We conducted this audit in accordance with generally accepted
                     government auditing standards. Those standards require that we
                     plan and perform the audit to obtain sufficient, appropriate
                     evidence to provide a reasonable basis for our findings and
                     conclusions based on our audit objectives. We believe that the
                     evidence obtained provides a reasonable basis for our finding and
                     conclusion based on our audit objectives.

Corrective Actions Taken by the Mint
                     Before March 2002, the Mint had sublet a part of its excess space
                     to the Internal Revenue Service and the legacy U.S. Customs
                     Service.4 Since the audit, the Mint has sublet space to additional
                     federal agencies—the Bureau of the Public Debt, the U.S. Marshals
                     Service, the Treasury Executive Institute, and Treasury
                     Departmental Offices. All together, the Mint sublet about 200,000
                     square feet to the six agencies. In addition, the Mint signed an
                     agreement with a retail service company to find a subtenant for its
                     retail space in the 801 9th Street building. The company received
                     bids from potential subtenants and engaged in negotiations with an
                     interested party. In June 2009, the Mint awarded the sublease to
                     the party.

                     To address the second recommendation, a Mint-wide policy
                     memorandum on procurement (PROC) guideline, PROC-06, was
                     issued on January 29, 2004. The policy identifies appropriate
                     management controls governing competitive source selections,
                     supporting documentation sufficient to record the basis for key
                     decisions made and actions taken during all phases of the
                     procurement, internal reviews, and financial analyses. In particular,
                     it states that in areas where the Mint does not have resident
                     expertise, the responsible procurement professional will request
                     outside advice from experts. For example, in the case of leasing
                     requirements, it states that the Mint would use the General

4
 The Homeland Security Act of 2002 moved the U.S. Customs Service to the Department of Homeland
Security, effective in March 2003.




                     The Mint Subleased Excessive Space in Its Headquarters Building     Page 4
                     (OIG-09-046)
                     Services Administration or a commercial real estate consultant to
                     help plan and execute the procurement. PROC-06 also calls for
                     competition in source selection and documentation of the selection
                     decision that shows the relative differences between proposals and
                     the comparative judgments that led to the selection decision.

                     In addition, on September 19, 2008, a Mint-wide policy
                     memorandum, PROC-09, was updated to implement the Federal
                     Acquisition Certification in Contracting, Warrant, and Training
                     requirements for Mint procurement personnel. 5 The updated
                     memorandum incorporated new requirements established by the
                     Office of Federal Procurement Policy.

                     Efforts to Consolidate the Headquarters Operation

                     The Mint began to occupy the 799 9th Street building in December
                     2001. A part of the space was soon sublet to the U.S Customs
                     Service. More space in that building was subsequently sublet to
                     other agencies as the Mint attempted to consolidate its
                     headquarters operation in the 801 9th Street building. As of May
                     2009, all but approximately 4,000 square feet had been sublet.
                     The remaining space is occupied by the Mint’s Chief Information
                     Officer’s data center, which is also in the process of being
                     consolidated to the data center in the 801 9th Street building.
                     According to Mint officials, the consolidation is expected to be
                     completed by the end of 2010. The lease on the 799 9th Street
                     building expires October 31, 2011. According to Mint officials, the
                     Mint does not have plans to renew or extend its lease of that
                     building.

                     Efforts to Sublease the Retail Space

                     The retail space on the first floor of the 801 9th Street building
                     contains approximately 9,700 square feet and has never been
                     occupied or used by the Mint since the Mint leased the building in
                     December 1997. In April 2007, acting on the Director of the Mint’s
                     desire to have the vacant retail space filled by a subtenant or

5
 Original policy statement was issued December 3, 1999, updated May 8, 2001 and updated again
effective September 19, 2008, to address new government-wide procurement training requirements.




                     The Mint Subleased Excessive Space in Its Headquarters Building        Page 5
                     (OIG-09-046)
                     Vacant retail space on the first floor of the 801 9th Street building

             subtenants, the Mint’s contracting office formed an acquisition
             management team to put together a statement of work and begin
             the request for proposal process. The Mint then solicited bids from
             management companies to find potential subtenants. The Mint
             signed a contract with a company on November 26, 2007.

             Through the company, three potential subtenants expressed
             interest in subleasing the retail space, but none of them signed a
             contract. The efforts to find a subtenant continued, and in June
             2009, the Mint awarded a sublease to an interested party. Under
             the planned sublease, the new tenant is expected to begin
             occupancy of approximately 8,000 square feet of space in 12 to
             18 months. The Mint has never occupied or used the space since it
             leased the building, leaving the space vacant for nearly 12 years.
             The Mint has foregone approximately $5 million in rental income by
             not leasing the space earlier.


Analysis of Space Needs
             The Mint’s leased space in the 799 9th Street building is 150,000
             square feet. The Mint’s leased space in the 801 9th Street building



             The Mint Subleased Excessive Space in Its Headquarters Building                 Page 6
             (OIG-09-046)
                      is 232,000 square feet. Total leased space is 382,000 square feet.
                      The previous audit report concluded that this amount of space
                      exceeded the Mint’s needs by approximately 33,800 square feet.
                      The excessive space was calculated based on an allotment of 342
                      square feet of needed space per person. At the time of the 2002
                      audit report, 714 persons occupied the leased space—521
                      employees of the Mint and 193 contractors. The Mint had sublet
                      61,400 square feet to the Internal Revenue Service and 42,200
                      square feet to the U.S. Customs Service.6 Therefore, the excess
                      space was calculated as follows:

                              382,000 square feet – (714 persons x 342 square feet) –
                              61,400 square feet – 42,200 square feet =
                              approximately 33,800 square feet

                      Based on information provided by the Mint, as of May 2009, 499
                      persons—342 employees and 157 contractors—occupied the
                      headquarters buildings. Excluding the space the Mint has sublet to
                      the six federal agencies, it is now occupying 182,000 square feet,
                      about 48 percent of the total leased space. We find it is still
                      excessive. Applying the same benchmark per-person space
                      allotment (342 square feet) to the number of persons working in
                      the headquarters buildings, we estimate that 171,000 square feet
                      is adequate to meet the Mint’s space needs (499 persons x 342
                      square feet = approximately 171,000 square feet). Accordingly,
                      11,000 square feet remained as excessive space before the Mint
                      sublet the vacant retail space:

                              182,000 square feet – 171,000 square feet = 11,000
                              square feet

                      A significant part of the excess is now eliminated with the sublease
                      of the retail space.




6
 Since then, the space occupied by the Internal Revenue Service and U.S. Customs and Border
Protection has changed to approximately 47,000 square feet and 95,000 square feet, respectively.




                      The Mint Subleased Excessive Space in Its Headquarters Building          Page 7
                      (OIG-09-046)
Conclusion
             The Mint has taken steps to eliminate the excess space in
             headquarters. It has consolidated its headquarters operation, sublet
             more space to federal agencies, and in particular, finally awarded a
             sublease for the spacious retail space in the 801 9th Street building.
             While we are not making a specific recommendation, in light of the
             12- to 18-month timeframe for the new tenant to occupy the retail
             space, Mint management should take prompt action to re-sublease
             the space should the occupancy not occur or the sublease is
             otherwise broken.

             Management Response

             In a written response dated August 21, 2009, the Mint Director
             stated that he is aware of the current environment associated with
             the sublease for the retail space in the 801 9th Street building, and
             is monitoring progress of the lessee to ensure the Mint can take
             prompt action should the sublease be broken. The response is
             included as Appendix 1.

                                               *******

             We would like to extend our appreciation for the cooperation and
             courtesies extended to our staff during the review. If you have any
             questions, please contact me at (202) 927-6512. The major
             contributor to this report was Myung Han, Program Analyst.


             /s/


             Michael J. Maloney
             Director, Fiscal Service Audits




             The Mint Subleased Excessive Space in Its Headquarters Building   Page 8
             (OIG-09-046)
Appendix 1
Management Response




The Mint Subleased Excessive Space in Its Headquarters Building   Page 9
(OIG-09-046)
Appendix 2
Report Distribution




Department of the Treasury

Deputy Secretary of the Treasury
Deputy Chief Financial Officer
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

United States Mint

Director
Audit Liaison Official

Office of Management and Budget

OIG Budget Examiner




The Mint Subleased Excessive Space in Its Headquarters Building   Page 10
(OIG-09-046)
